No. ________
IN THE

Supreme Court of the United States
________________
APPLE INC.,
Petitioner,
v.
VIRNETX INC., LEIDOS, INC.,
Respondents.
APPLICATION TO THE HON. CHIEF JUSTICE JOHN G. ROBERTS, JR.
FOR A 60-DAY EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT
Pursuant to Rule 13.5 of the Rules of this Court, Applicant Apple Inc. (Apple)
moves for an extension of time of 60 days, up to and including December 30, 2019,
within which to file a petition for a writ of certiorari.
1. Applicant will seek review of the judgments in VirnetX Inc. v. Cisco
Systems, Inc., 767 F.3d 1308 (Fed. Cir. 2014) (VirnetX I), and VirnetX Inc. v. Cisco
Systems, Inc., No. 18-1197 (Fed. Cir. Aug. 1, 2019) (VirnetX II). A copy of the
decision in VirnetX I, dated September 16, 2014, is attached as Exhibit 1. A copy of
the decision in VirnetX II, dated January 15, 2019, is attached as Exhibit 2. A copy
of the Federal Circuit’s subsequent order denying Apple’s Petition for Rehearing
and Rehearing En Banc in VirnetX II, dated August 1, 2019, is attached as Exhibit
3. The current deadline for filing a petition for writ of certiorari is October 30, 2019.
This application is filed more than 10 days before the date the petition is due. See
Sup. Ct. R. 13.5. The jurisdiction of this Court is based on 28 U.S.C. § 1254(1).

2. This case arises from a long-running, multi-patent, and multi-proceeding
dispute. VirnetX Inc. (VirnetX) sued Apple in August 2010 for allegedly infringing
four of VirnetX’s patents. The underlying controversy has since led to judgments
totaling more than a billion dollars and has spawned numerous parallel proceedings
in both federal court and the Patent Office. Notably, the Patent Office has held all
of the patent claims asserted against Apple to be unpatentable; some of these
decisions have been affirmed by the Federal Circuit, while others are at various
stages before the Patent Office or on appeal.
3. Good cause exists for an extension because of the press of business on
other pending matters that have thus far affected counsel’s availability and will
continue to do so. The undersigned has been responsible for a petition for writ of
certiorari in DISH Network L.L.C. v. Krakauer, No. 18-1518 (4th Cir.), filed in this
Court on October 15, 2019; oral argument in Ward v. Apple Inc., No. 18-16016 (9th
Cir.), heard on October 16, 2019; an opening brief in Bio-Rad Laboratories, Inc. v.
10x Genomics, Inc., Nos. 19-2255 & 19-2285 (Fed. Cir.), due October 18, 2019; a
reply brief in Arconic Inc. v. APC Investment Co., No. 19-55181 (9th Cir.), due
November 5, 2019; and an answering brief in Egenera, Inc. v. Cisco Systems, Inc.,
No. 19-2015 (Fed. Cir.), due November 19, 2019. In addition, co-counsel Mark S.
Davies is responsible for a brief in opposition in Amarin Pharma, Inc. v.
International Trade Commission, S. Ct. No. 19-152, due November 4, 2019; a
response/reply in Variety Stores, Inc. v. Walmart Inc., No. 19-1601 (4th Cir.), due
November 8, 2019; a brief in opposition in Regents of the University of Minnesota v.
2

LSI Corp., S. Ct. No. 19-337, due November 14, 2019; and an opening brief in CCC
Information Services Inc. v. Tractable Inc., No. 19-1997 (7th Cir.), due December 6,
2019.
4. An extension is warranted because this case presents fundamental and
complex issues of patent law — including the Federal Circuit’s interpretation of this
Court’s requirement, set forth in Garretson v. Clark, 111 U.S. 120 (1884), that
patent damages must always be apportioned to reflect the value of the patented
invention. The questions presented in Apple’s petition will have a significant impact
on U.S. patent law’s careful balancing between the private interests of the patentee
and the public interest in promoting innovation. See Motion Picture Patents Co. v.
Universal Film Mfg. Co., 243 U.S. 502, 511 (1917). An extension of time will help to
ensure that the petition effectively presents the important issues raised by these
complex, interrelated cases.
5. For the foregoing reasons, Applicant hereby requests that an extension of
time be granted, up to and including December 30, 2019, within which to file a
petition for writ of certiorari.
Respectfully submitted,
_____________________________________
E. Joshua Rosenkranz
Counsel of Record
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com
October 17, 2019
3

